                 Information Is Needed to Determine the
                 Effect the Wage and Investment Division
                  Research Program Has on Improving
               Customer Service and Voluntary Compliance

                                     April 2004

                       Reference Number: 2004-40-088




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                              DEPARTMENT OF THE TREASURY
                                                    WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                       April 14, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                         Gordon C. Milbourn III
                                     Acting Deputy Inspector General for Audit

       SUBJECT:                      Final Audit Report - Information Is Needed to Determine the
                                     Effect the Wage and Investment Division Research Program Has
                                     on Improving Customer Service and Voluntary Compliance
                                     (Audit # 200340006)


       This report presents the results of our review of the Wage and Investment (W&I)
       Division Research Program. The overall objective of this review was to determine
       whether the W&I Division Research Program’s purpose, strategies, plans, and
       management policies are designed to ensure that the Research Program selects the
       most productive research projects in an effort to assist the Internal Revenue Service
       (IRS) in furthering its goals of improving customer service and voluntary compliance.
       We conducted this review as a part of the Treasury Inspector General for Tax
       Administration’s Fiscal Year (FY) 2003 discretionary audit coverage concerning
       reliability of information.
       The W&I Division began operation in October 2000 and serves approximately
       122 million taxpayers, who file over 94 million tax returns. W&I Division taxpayers are
       highly compliant with tax filing requirements and typically file simple tax returns. The
       W&I Division Research Program’s mission is to provide timely, top-quality research and
       analysis in support of the W&I Division’s mission and goals.1 Having its own research
       function creates a more customer-driven operation that involves and communicates with
       the various W&I Division functions throughout the research process, thereby improving
       business results, employee satisfaction, and customer service. In FY 2003, the
       W&I Division Research Program completed 344 projects.


       1
         The W&I Division’s mission and goals are to provide customers top-quality service by helping them understand
       and comply with applicable tax laws and to protect the public interest by applying the tax law with integrity and
       fairness to all.
                                           2

The Research Program has a comprehensive annual strategic planning process that is
customer-driven and includes annual goals for producing timely, relevant, accurate, and
useful products. While the annual planning and related goals will help ensure and
gauge the quality of the Research Program, more can be done to ensure the Research
Program selects the most productive research projects. Specifically,
•   Improvements are needed to ensure annual goals are being met. Current guidelines
    neither require assurance that accuracy reviews of project results have been
    performed nor include an effective process to obtain feedback from the customers to
    determine the usefulness or value of the final research projects.
•   Long-term performance goals and measures are needed. The IRS has not
    developed results-oriented, long-term goals and measures for the Research
    Program because it does not have a process to monitor and measure progress on
    improving customer service and voluntary compliance for W&I Division taxpayers.
    However, Research Program management is working toward developing these
    goals and measures.
•   A centralized management information system is needed. The Research Program
    has not fully implemented a centralized management information system to track
    and monitor its projects. It is working toward implementing a new centralized
    system; however, the new system does not allow management to easily monitor and
    track project costs to assess the cost-effectiveness of the Research Program.
We recommended the W&I Division Commissioner ensure the Research Program
guidelines are revised to require documentation supporting the performance of an
accuracy review or explaining why a review was not warranted, and develop an
effective process to measure the usefulness of the research products. We also
recommended the W&I Division Commissioner ensure long-term goals and a
measurement process are developed to monitor the effect the Research Program has
on improving tax administration, and implement a centralized management information
system to enable the efficient tracking and monitoring of all aspects of a research
project.
Management’s Response: IRS management agreed with all of our recommendations
and is taking corrective action. Specifically, the W&I Division Research Program will
revise guidance to require maintaining documentation supporting the performance of
accuracy reviews, establish a system to assess the usefulness of its research products,
establish long-term goals and measures, and implement the Microsoft Project 2002®
system to centrally manage resources and projects. Management’s complete response
to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
     Information Is Needed to Determine the Effect the Wage and Investment Division
    Research Program Has on Improving Customer Service and Voluntary Compliance



                                                  Table of Contents


Background ............................................................................................... Page 1
The Annual Strategic Planning Process Has Established
Balanced Measures and Performance Levels ........................................... Page 3
Improvements Are Needed to Ensure Annual Goals Are
Being Met .................................................................................................. Page 4
         Recommendations 1 and 2: .......................................................... Page 6

Long-Term Performance Goals and Measures Are Needed ..................... Page 6
         Recommendation 3: ...................................................................... Page 8

A Centralized Management Information System Is Needed ...................... Page 8
         Recommendation 4: ...................................................................... Page 10

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Management’s Response to the Draft Report .................... Page 15
     Information Is Needed to Determine the Effect the Wage and Investment Division
    Research Program Has on Improving Customer Service and Voluntary Compliance

                                 In 1998, the Congress passed the Internal Revenue Service
Background
                                 (IRS) Restructuring and Reform Act of 1998,1 which
                                 included a directive for the IRS to reorganize its operations.
                                 In response, the IRS reorganized into four operating
                                 divisions2 based on taxpayer needs. The Wage and
                                 Investment (W&I) Division began operation in
                                 October 2000 and serves approximately 122 million
                                 taxpayers, who file over 94 million tax returns. W&I
                                 Division taxpayers are highly compliant with tax filing
                                 requirements and typically file simple tax returns.3 Many of
                                 the tax problems faced by W&I Division taxpayers have to
                                 do with a misunderstanding of their tax obligations due to
                                 education and communication issues.
                                 As part of the IRS’ reorganization, a separate research
                                 function was placed in each operating division to create a
                                 more customer-driven research operation that would involve
                                 and communicate with the customer throughout the research
                                 process. The goal of placing a separate research function in
                                 each operating division was to improve business results,
                                 employee satisfaction, and customer service.
                                 The W&I Division Research Program is headquartered
                                 in Atlanta, Georgia, and has research field groups located
                                 in Atlanta, Georgia; Boston, Massachusetts;
                                 Indianapolis, Indiana; Jacksonville, Florida;
                                 Los Angeles, California; and St. Louis, Missouri, with a
                                 total of 77 field personnel. The personnel in the field
                                 groups include mostly technical analysts, statisticians, and
                                 support staff. The operating budget in Fiscal Year
                                 (FY) 2003 was approximately $9 million, and the budget for
                                 FY 2004 is approximately $10 million.



                                 1
                                   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                 sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                 2
                                   The four operating divisions include the Large and Mid-Size Business,
                                 Small Business/Self-Employed, Tax Exempt and Government Entities,
                                 and Wage and Investment Divisions.
                                 3
                                   These are taxpayers filing a U.S. Individual Income Tax Return
                                 (Form 1040) with no international activity and without the following
                                 schedules: Employee Business Expenses (Form 2106), Profit or Loss
                                 From Business (Sole Proprietorship) (Schedule C), Profit or Loss From
                                 Farming (Schedule F), or Supplemental Income and Loss (Schedule E).
                                                                                                Page 1
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance

                             Research Program customers include the Customer
                             Assistance, Relationships, and Education; Compliance; and
                             Customer Account Services functions. The Customer
                             Assistance, Relationships, and Education function is
                             responsible for educating W&I Division taxpayers and
                             assisting them in filing their tax returns. The Compliance
                             function is responsible for ensuring taxpayers fulfill their
                             tax obligations through accurate and consistent application
                             of the tax law. The Customer Account Services function is
                             responsible for assisting taxpayers with filing their tax
                             returns, receiving their refunds, and resolving their
                             tax-related issues.
                             The planned research projects are distributed among the
                             various Research Program field groups, with each field
                             group assigned to support specific W&I Division customers.
                             The projects are categorized by the estimated time to
                             complete and the significance of the project. The time to
                             complete a project is usually linked with the significance
                             and potential effect of the project. The primary categories
                             are those estimated for completion within 30 days and those
                             estimated for completion in over 30 days. Research
                             Program management stated that of the 344 projects closed
                             in FY 2003, 103 (30 percent) took over 30 days to complete
                             with the remaining 241 (70 percent) being completed within
                             30 days.
                             This review was performed at the W&I Division Research
                             Program Headquarters and field office in Atlanta, Georgia,
                             and the Boston, Massachusetts, field office. The remaining
                             field offices4 participated in the audit through
                             teleconferencing. Audit work was performed during the
                             period June through December 2003. The audit was
                             conducted in accordance with Government Auditing
                             Standards. Detailed information on our audit objective,
                             scope, and methodology is presented in Appendix I. Major
                             contributors to the report are listed in Appendix II.




                             4
                              Indianapolis, Indiana; Jacksonville, Florida; Los Angeles, California;
                             and St. Louis, Missouri.
                                                                                              Page 2
       Information Is Needed to Determine the Effect the Wage and Investment Division
      Research Program Has on Improving Customer Service and Voluntary Compliance

                                   The Research Program has a comprehensive annual strategic
The Annual Strategic Planning      planning process that is customer-driven and includes
Process Has Established Balanced   annual goals for producing timely, relevant, accurate, and
Measures and Performance           useful products. In addition, the mission of the Research
Levels                             Program—to provide timely, top-quality research and
                                   analysis—supports the W&I Division’s mission and goals to
                                   provide customers top-quality service by helping them
                                   understand and comply with applicable tax laws and to
                                   protect the public interest by applying the tax laws with
                                   integrity and fairness to all.
                                   The Research Program’s strategic planning process is
                                   customer-driven, and the projects selected for inclusion in
                                   the annual plan are the result of extensive coordination with
                                   those customers. The chief of each field group serves as a
                                   liaison between the Research Program and the W&I
                                   Division-assigned customer. As liaison, the chief meets
                                   throughout the year with the customers’ contacts to discuss
                                   their needs. This supports the development of the annual
                                   strategic plan and allows the Research Program to shift
                                   resources if unexpected priorities arise for the customer
                                   during the year.
                                   To ensure the projects selected support W&I Division goals
                                   and initiatives, the Research Program links each of its
                                   planned research projects with a specific W&I Division
                                   strategy. Ultimately, the projects selected are intended to
                                   provide meaningful information to W&I Division decision
                                   makers as they develop their near- and long-term strategies,
                                   plans, and programs to perform their functional
                                   responsibilities in tax administration.
                                   Once the annual plan is developed and work on the projects
                                   begins, the Research Program compiles data on a monthly
                                   basis to measure its performance toward meeting established
                                   balanced measures. These balanced measures are the same
                                   measures required for all IRS operations and include
                                   customer satisfaction, employee satisfaction, and business
                                   results (e.g., the number of projects closed, resources used,
                                   or quality of reports and plans).




                                                                                          Page 3
       Information Is Needed to Determine the Effect the Wage and Investment Division
      Research Program Has on Improving Customer Service and Voluntary Compliance

                                   The Research Program has established short-term annual
Improvements Are Needed to
                                   goals that include producing timely, relevant, accurate, and
Ensure Annual Goals Are Being
                                   useful products. These annual goals will help gauge the
Met
                                   quality of the Research Program. In addition, management
                                   has a method for ensuring the goals of producing timely and
                                   relevant products are being met. For example, the Research
                                   Program established targets for the number of days to
                                   complete the various projects and monitors these completion
                                   time periods on a monthly basis. To ensure projects are
                                   relevant, the Research Program works extensively with the
                                   customer to select projects. However, current guidelines do
                                   not require assurance that accuracy reviews of project
                                   results have been performed or include an effective process
                                   to obtain feedback from the customers to determine the
                                   usefulness or value of the final research projects.
                                   Documentation is not required supporting the accuracy
                                   reviews of research results
                                   Program guidelines state that the Research Program chiefs
                                   have the primary responsibility for ensuring the quality of
                                   work completed in their groups. These guidelines require
                                   each chief to ensure the accuracy of research results at the
                                   field group level. For those projects that include a
                                   quantitative analysis, the chief is to ensure the accuracy of
                                   the quantitative analysis has been corroborated by
                                   independent replication or other appropriate method.
                                   Although guidelines establish responsibility for the accuracy
                                   of research results, the guidelines do not require
                                   documentation to be maintained to support the performance
                                   of these accuracy reviews. However, Standards for Internal
                                   Control in the Federal Government5 require the appropriate
                                   documentation of transactions and internal controls.
                                   Specific documentation should be maintained in the
                                   research project file supporting the validation of the results
                                   of the accuracy reviews.
                                   We did not identify any instances in which customers of the
                                   Research Program raised concerns about the accuracy of the
                                   research results provided to them. However, without
                                   documentation to support that an accuracy review was

                                   5
                                    Standards for Internal Control in the Federal Government
                                   (GAO/AIMD-00-21.3.1, dated November 1999).
                                                                                               Page 4
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance

                             performed, Research Program management cannot provide
                             assurance that the information the IRS is relying on is
                             accurate.
                             Current guidelines do not include an effective process to
                             obtain customer feedback on the usefulness of research
                             results
                             Research Program guidelines do not require the Research
                             Program chiefs to regularly follow up with customers to
                             determine whether research results were useful. During the
                             planning phase of a project, the Research Program chiefs
                             hold discussions with the customers to determine how the
                             customers plan to use the research information. However,
                             management has not developed a process to determine if the
                             research results provided the intended benefit(s).
                             Research Program management recognizes the importance
                             of determining the effect of the research results on their
                             customers’ programs and has attempted to obtain this
                             information. In April and July of 2003, management
                             surveyed their customers to identify the effect, if any, of
                             research results. However, Research Program management
                             stated that the responses received from their customers were
                             often “soft and vague” and did not enable management to
                             clearly identify the effect of the results. In the future, the
                             Research Program Director will follow up with customers
                             about 6 months after the research work is completed to
                             discuss the usefulness of the information that was provided.
                             We reported a similar issue in May 2000.6 The reported
                             issue related to the IRS’ centralized Research Program.
                             That Program could not quantify its value to tax
                             administration and could not accurately measure its
                             cost-effectiveness or the effect of the information it
                             provided. We recommended the IRS develop a process to
                             identify and measure actual research outcomes and their
                             related costs. IRS management agreed with the
                             recommendation and stated that they would rely on the new
                             strategic planning and budget process in each operating
                             division to link research results with strategic measures.

                             6
                              The Internal Revenue Service Needs to Improve Control of Its
                             Compliance Research Program (Reference Number 2000-40-068,
                             dated May 2000).
                                                                                        Page 5
       Information Is Needed to Determine the Effect the Wage and Investment Division
      Research Program Has on Improving Customer Service and Voluntary Compliance

                                   Federal Government agencies are expected to identify
                                   high-quality outcome measures and accurately monitor
                                   performance of programs. The Government Performance
                                   and Results Act of 1993 (GPRA)7 and related Office of
                                   Management and Budget circulars require each Federal
                                   Government agency, as part of the strategic planning
                                   process, to develop outcome-related goals and objectives for
                                   the major functions and operations of the agency.
                                   Without an effective process to identify and measure the
                                   outcome of its research, the Research Program will be
                                   unable to measure its progress toward meeting its annual
                                   goal of providing useful research results.
                                   Recommendations

                                   The Commissioner, W&I Division, should:
                                   1. Revise Research Program guidelines to require that
                                      documentation be maintained supporting the
                                      performance of an accuracy review for all research
                                      projects or explaining why a review was not warranted.
                                   Management’s Response: Research Program guidelines
                                   will be revised to include guidance to maintain
                                   documentation supporting the performance of accuracy
                                   reviews.
                                   2. Develop an effective process to determine the usefulness
                                      of research products and include the process in the
                                      Research Program guidelines.
                                   Management’s Response: The W&I Division Research
                                   Program will establish a system to assess the usefulness of
                                   its research products.
                                   The IRS has not developed results-oriented, long-term goals
Long-Term Performance Goals
                                   and measures to determine the effectiveness of the Research
and Measures Are Needed
                                   Program because it does not have a process to monitor and
                                   measure progress toward improving customer service and
                                   voluntary compliance for W&I Division taxpayers.
                                   However, Research Program management is working
                                   toward developing these goals and measures.

                                   7
                                     Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                                   sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
                                                                                                   Page 6
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance

                             For example, Research Program management has
                             established the Strategic Forecasting and Analysis (SFA)
                             research field group. The SFA group’s mission is to
                             analyze trends and forecasts to assist W&I Division leaders
                             in addressing long-term challenges expected to affect their
                             ability to provide products and services to W&I Division
                             taxpayers of the future. The SFA group’s mission differs
                             from the mission of the other Research Program field groups
                             in that its mission focuses on future challenges while the
                             other field groups focus on current challenges.
                             Since its inception, the SFA group has produced over
                             75 reports that reflect a wide range of demographic,
                             economic, and technological issues. Management stated
                             that they require the various Research Program chiefs to
                             discuss these reports with their assigned customers, if
                             applicable. However, a process has not been developed
                             confirming which customers have received specific SFA
                             group reports or how the customers might have used the
                             information. After we raised this issue to Research Program
                             management, they emailed their customers outlining the
                             various SFA group projects and stating which operational
                             priority each project addresses. This information was
                             provided to assist W&I Division management in their
                             strategic planning efforts.
                             We recognize the difficulty in measuring the long-term
                             effects of the Research Program, especially in quantifiable
                             terms. However, management could use the SFA group
                             project results to identify trends to be considered in the
                             development of long-term goals and measures.
                             Without established long-term goals and measures that
                             monitor the effect the Research Program has on improving
                             tax administration, the ability of IRS management and the
                             Congress to make informed business decisions related to the
                             Research Program is hampered. Knowing the effect the
                             Research Program has on improving customer service and
                             voluntary compliance will help assure the Congress of the
                             value the Research Program provides for the resources it
                             uses.
                             In addition, without adequate long-term goals and measures,
                             the Research Program will be unable to comply with the
                             The President’s Management Agenda relating to improving
                                                                                   Page 7
       Information Is Needed to Determine the Effect the Wage and Investment Division
      Research Program Has on Improving Customer Service and Voluntary Compliance

                                   budget and performance integration, which requires
                                   Federal Government agencies to identify high-quality
                                   outcome measures and accurately monitor program
                                   performance.
                                   Recommendation

                                   The Commissioner, W&I Division, should:
                                   3. Develop long-term goals and a measurement process to
                                      enable management to monitor the effect the Research
                                      Program has on improving tax administration.
                                   Management’s Response: Long-term goals and measures
                                   will be established at the start of the FY 2007 Strategic
                                   Planning process for the W&I Division Research Program.
                                   The Research Program has not fully implemented a
A Centralized Management
                                   centralized management information system (MIS) to track
Information System Is Needed
                                   and monitor its projects. Instead, it has been using a
                                   modified version of an existing system that, in
                                   February 2002, the W&I Division Performance
                                   Improvement Team8 determined provided incomplete and
                                   inaccurate information.
                                   The W&I Division Performance Improvement Team
                                   determined that the Research Program’s MIS tracked only
                                   projects that typically took over 30 days to complete. In
                                   FY 2003, this would have excluded 94 percent of the
                                   Program’s projects. In addition, project status definitions
                                   varied among groups, project numbers were not descriptive,
                                   and each research group manually tracked its own time
                                   spent on projects.
                                   In response to the W&I Division Performance Improvement
                                   Team findings, Research Program management decided to
                                   implement a new centralized MIS by October 2002. In the
                                   interim, they made changes to the current MIS, which is still
                                   being used. However, the current process is inefficient,
                                   repetitive, and labor-intensive. It is not centralized and


                                   8
                                     The W&I Division Performance Improvement Team provides
                                   independent reviews of processes and procedures for vital programs that
                                   directly affect the efficiency and effectiveness of operations within the
                                   W&I Division. Results are reported directly to the Director, Strategy
                                   and Finance.
                                                                                                    Page 8
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance

                             requires each of the seven Research Program chiefs to
                             maintain separate systems of management controls for each
                             group.
                             In addition, both the current system and the new system do
                             not allow management to easily monitor and track project
                             costs to assess the cost-effectiveness of the Research
                             Program. The cost of a project is estimated during early
                             discussions with the customer, but the Research Program
                             does not regularly or easily collect actual project cost
                             information. As a result, the Research Program cannot
                             easily analyze the costs of research projects over time to
                             identify the cost-effectiveness of the Research Program and
                             determine where to make improvements.
                             The new MIS, planned to have been implemented by
                             October 2002, would consist of Microsoft Project 2000®
                             and its companion product, Project Central®. These
                             Microsoft products are standard tools for project planning,
                             monitoring, and reporting. The Microsoft Project 2000®
                             software is designed to determine completion dates of
                             projects based on the start date, major milestones, and staff
                             availability. Project Central® is a web-based application
                             that allows project managers and project team members to
                             communicate about the assignment and status of project
                             tasks. Project Central® also provides for division-wide
                             reporting of project information.
                             A centralized MIS will provide the Research Program a
                             uniform way to track information. Research Program
                             guidelines state that a uniform approach to project
                             management and the use of a standard project management
                             tool will also enable the Program to quantify progress on the
                             balanced measures and manage the priorities of the
                             Research Program. In addition, standard project
                             management methods will support the Research Program’s
                             future development of organizational resources and enable
                             the Program to:
                             •   Better align researchers’ skills to projects.
                             •   Identify organizational needs for resources and skill
                                 enhancements.
                             As of December 2003, the centralized MIS had not been
                             fully implemented. The National Treasury Employees
                                                                                    Page 9
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance

                             Union raised concerns about the Research Program tracking
                             employee direct time. In addition, Research Program
                             management had raised concerns about having to use two
                             different systems to meet their needs.
                             We learned from the Small Business/Self-Employed
                             Division Research Program employees, who have been
                             using Microsoft Project 2000® and its companion Project
                             Central® since October 2002, that the software is not
                             designed to track employee time for payroll purposes and
                             that the software does not have the ability to capture
                             narratives, functions the Research Program desires.
                             However, Research Program management has recently
                             accepted the limitations of the software and plans to move
                             forward with its implementation.
                             Neither the current system nor the new system will provide
                             all the tools necessary to manage the Research Program.
                             Until management has implemented a new MIS to track the
                             projects and their related costs, the Research Program will
                             be unable to easily monitor and track its progress toward
                             managing its priorities and meeting its goals.
                             Recommendation

                             The Commissioner, W&I Division, should:
                             4. Ensure a centralized MIS is implemented to enable the
                                efficient tracking and monitoring of all aspects of a
                                research project.
                             Management’s Response: The W&I Division Research
                             Program will implement the Microsoft Project 2002®
                             system. This system will provide tools to centrally manage
                             resources and projects, to provide a central repository for
                             project documentation, and to consistently report project
                             information across research groups. Completion of this
                             action is contingent on the completion of a systems
                             modification by Microsoft Corporation.




                                                                                 Page 10
        Information Is Needed to Determine the Effect the Wage and Investment Division
       Research Program Has on Improving Customer Service and Voluntary Compliance

                                                                                      Appendix I


                       Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the Wage and Investment (W&I)
Division Research Program’s purpose, strategies, plans, and management policies are designed
to ensure the Research Program selects the most productive research projects in an effort to assist
the Internal Revenue Service (IRS) in furthering its goals of improving customer service and
voluntary compliance. To accomplish the objective, we:
I.       Determined whether the mission of the Research Program is aligned with the missions of
         the W&I Division and the IRS.
         A. Researched the W&I Division and Research Program web sites to determine whether
            the mission, goals, and objectives of the Research Program promote improving
            customer service and increasing voluntary compliance.
         B. Interviewed the Research Program Director to determine whether the mission and
            purpose of the Research Program support improving customer service and increasing
            voluntary compliance.
II.      Determined whether the Research Program has an adequate strategic planning process,
         including the establishment of valid annual and long-term goals, and ensures the goals are
         incorporated in the project selection process. We determined whether:
         A. The Research Program has specific long-term performance goals that focus on
            outcomes and reflect its purpose.
         B. The Research Program has a number of annual performance goals that demonstrate
            progress toward achieving the long-term goals.
         C. The Research Program chiefs support program planning efforts by committing to the
            annual and long-term goals of the Research Program.
         D. The Research Program collaborates and coordinates effectively with related programs
            (e.g., the Small Business/Self-Employed Division) that share similar goals and
            objectives.
         E. The Research Program has independent and quality evaluations to support Research
            Program improvements and evaluate effectiveness.
III.     Determined whether the Research Program has sufficient data to monitor and control the
         Research Program to ensure it meets its goals and strategies.
         A. Interviewed Research Program management to determine how the Research Program
            is monitored.


                                                                                           Page 11
       Information Is Needed to Determine the Effect the Wage and Investment Division
      Research Program Has on Improving Customer Service and Voluntary Compliance

        B. Identified which reports are available for management oversight and monitoring of
           the Research Program.
        C. Interviewed Research Program management to determine what criteria are used when
           formulating project selection.
        D. Determined how often the Research Program collects timely and credible
           performance information and uses it to manage the Research Program and improve
           performance.
        E. Reviewed Research Program guidelines and interviewed employees to understand the
           project selection process and determine if it agrees with the strategies and goals of the
           Program.
IV.     Determined whether the Research Program has sufficient cost information and data to
        determine if the Research Program is cost-effective.
        A. Determined the projected expenditures for the W&I Division to administer the
           Research Program in Fiscal Year 2004.
        B. Determined whether the costs to perform each project are collected and compared to
           the yield.
        C. Determined whether cost data are compared over time to identify the effectiveness of
           the Research Program and where to make improvements.




                                                                                            Page 12
    Information Is Needed to Determine the Effect the Wage and Investment Division
   Research Program Has on Improving Customer Service and Voluntary Compliance

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Russell Martin, Audit Manager
Pamela DeSimone, Senior Auditor
Robert Howes, Senior Auditor
Vacenessia Daniels Brown, Auditor




                                                                                         Page 13
    Information Is Needed to Determine the Effect the Wage and Investment Division
   Research Program Has on Improving Customer Service and Voluntary Compliance

                                                                           Appendix III


                              Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Strategy and Finance SE:W:S
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                Page 14
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance

                                                                     Appendix IV


               Management’s Response to the Draft Report




                                                                           Page 15
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance




                                                                           Page 16
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance




                                                                           Page 17
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance




                                                                           Page 18
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance




                                                                           Page 19
 Information Is Needed to Determine the Effect the Wage and Investment Division
Research Program Has on Improving Customer Service and Voluntary Compliance




                                                                           Page 20
